Supreme Court, U.S.
FILED

NOV 2 0 2019

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-555

R. Ray Fulmer, II
(Petitioner)

v. Fifth Third Equipment Finance Company, et al.
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Fifth Third Equipment Finance Company

0 I am a member of the Bar of the Supreme Court of the United States.
E I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature --Date. November 19, 2019
(Type or print) Name Lloyd A. Lim
[3 Mr. 0 Ms. 0 Mrs.

❑ Miss

Firm Reed Smith LLP
Address 811 Main Street, Suite 1700
City & State Houston, Texas
Phone (713) 469-3671

Zip 77002

Email LLim@ReedSmith.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Whitney Aaron Davis, James E. Smith

NOV 2 2 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

ReedSmith

Reed Smith LLP
Suite 1700
811 Main Street
Houston, TX 77002-6110
+1 713 469 3800
Fax +1 713 469 3899
reedsmith.com

Rachel I. Thompson
Direct Phone: +1 713 469 3652
Email: rithompson@reedsmith.com

November 20, 2019
Via UPS Overnight Mail
Supreme Court of the United States
Attn: Clerk's Office
1 First Street, NE
Washington, DC 20543
Re:

R. Ray Fulmer, II, Petitioner v. Fifth Third Equipment Finance, et al.;
Case No. 19-555

To whom it may concern:
Enclosed for filing in the above-referenced case, is the Waiver of Lloyd A. Lim, counsel for Fifth
Third Equipment Finance Company.
Thank you for your assistance with this matter. Please do not hesitate to contact me if you have
any comments or questions.
Very truly yours,

P

adjel- Ar•104)---Rachel I. Thompson

RIT:es
Enclosure

RECEIVED
NOV 2 2 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.
ABU DHABI ♦ ATHENS ♦ AUSTIN ♦ BEIJING ♦ CENTURY CITY ♦ CHICAGO ♦ DALLAS ♦ DUBAI ♦ FRANKFURT ♦ HONG KONG • HOUSTON ♦ KAZAKHSTAN • LONDON ♦ LOS ANGELES ♦ MIAMI ♦ MUNICH .
NEW YORK ♦ PARIS ♦ PHILADELPHIA ♦ PITTSBURGH ♦ PRINCETON ♦ RICHMOND ♦ SAN FRANCISCO ♦ SHANGHAI ♦ SILICON VALLEY ♦ SINGAPORE ♦ TYSONS ♦ WASHINGTON, D.C. ♦ WILMINGTON

US_ACTiVE-150273290.1-CESNIDER 11/20/2019 3:51 PM

